                                     SOCIAL SECURITY
MEMORANDUM

Date:   July 11, 2008                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: PerformanceIndicator Audit: Disability Determination Services Processing
        (A-02-07-17131)


        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 13 of the Social
        Security Administration’s (SSA) performance indicators established to comply with the
        Government Performance and Results Act. Attached is the final report presenting the
        results of two of the performance indicators PwC reviewed. For the performance
        indicators included in this audit, PwC’s objectives were to:

        •   Assess the effectiveness of internal controls and test critical controls over data
            generation, calculation, and reporting processes for the specific performance
            indicator.
        •   Assess the overall reliability of the performance indicator’s computer-processed
            data. Data are reliable when they are complete, accurate, consistent and not
            subject to inappropriate alteration.
        •   Test the accuracy of results presented and disclosed in SSA’s Fiscal Year 2007
            Performance and Accountability Reports.
        •   Assess if the performance indicator provides a meaningful measurement of the
            program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicators:

        •   Disability Determination Services (DDS) net accuracy rate (allowances and denials
            combined).
        •   Maintain the number of initial disability claims pending in the DDS (at/below
            FY 2007/2008 goal).
Page 2 – The Commissioner


Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE INDICATOR AUDIT:
     DISABILITY DETERMINATION
        SERVICES PROCESSING

      July 2008   A-02-07-17131




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      June 12, 2008                                                                  Refer To:

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Disability Determination Services (DDS) Processing
           (A-02-07-17131)


           OBJECTIVE
                                                                                     1
           The Government Performance and Results Act of 1993 (GPRA) requires that the
           Social Security Administration (SSA) develop performance indicators that assess the
                                                                         2
           relevant service levels and outcomes of each program activity. GPRA also calls for a
           description of the means employed to verify and validate the measured values used to
           report on program performance. 3

           Our audit was conducted in accordance with generally accepted government auditing
           standards for performance audits. For the performance indicators included in this audit,
           our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the data
              generation, calculation, and reporting processes for the specific performance
              indicator.

           2. Assess the overall reliability of the performance indicator’s computer-processed
              data. Data are reliable when they are complete, accurate, consistent and not
              subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in SSA’s Fiscal Year
              (FY) 2007 Performance and Accountability Report (PAR).

           4. Determine whether the performance indicator provides a meaningful measurement
              of the program it measures and the achievement of its stated objective.


           1
            Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
           Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
           2
               31 U.S.C. § 1115(a)(4).
           3
               31 U.S.C. § 1115(a)(6).
           4
            Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
           Data, October 2002, p. 3.


           Performance Indicator Audit: DDS Processing (A-02-07-17131)                                          1
BACKGROUND

We audited the following performance indicators as stated in the SSA FY 2007 PAR.

           Performance Indicator                      FY 2007 Goal              FY 2007 Reported
                                                                                     Results

Disability Determination Services                           97%                      97%* **
(DDS) net accuracy rate (allowances
and denials combined) 5
Maintain the number of initial                           577,000                     555,317
disability claims pending in the DDS
(at/below FY 2007/2008 goal) 6
* The actual number is rounded to the nearest whole number using the standard rounding convention of
rounding up numbers that are .5 or higher and rounding down numbers that are four or less.

** The performance indicator calculation reported in the PAR is through June 2007.

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI),
and Supplemental Security Income (SSI) programs. The OASI program, authorized by
Title II of the Social Security Act, provides income for eligible workers and eligible
members of their families and survivors. 7 The DI program, also authorized by Title II of
the Social Security Act, provides income for eligible workers with qualifying disabilities
                                                                                       8
and eligible members of their families before those workers reach retirement age. The
SSI program, authorized by Title XVI of the Social Security Act, was designed as a
needs-based program to provide or supplement the income of aged, blind, and/or
disabled individuals with limited income and resources. 9

To determine eligibility for both Title II and XVI programs, applicants must first file a
claim with SSA. This is accomplished via the Internet, immediate claims taking via the
telephone, or through an appointment or walk-in visit to 1 of SSA’s approximately
1,300 field offices (FO). Interviews are conducted by FO personnel with applicants via
the telephone or in person to determine the applicants’ non-medical eligibility. If an
applicant is filing for benefits based on disability, basic medical information concerning
the disability, medical treatments, and identification of treating sources is obtained.

FO personnel input the applicant’s information into the Modernized Claims System
(MCS) for OASI and DI claims or the Modernized SSI Claims System (MSSICS) for SSI

5
    SSA FY 2007 PAR, pp. 53 and 54.
6
    Id. pp. 48 and 49.
7
    The Social Security Act §§ 201-234, 42 U.S.C. §§ 401-434.
8
    Id.
9
    The Social Security Act §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.


Performance Indicator Audit: DDS Processing (A-02-07-17131)                                            2
claims. The SSI Records Maintenance System (SSIRMS) is the back-end processing
unit of the MSSICS application for SSI claims. This establishes the application and/or
the claim’s protective filing date. A relatively minor number of OASI and DI claims are
input through the SSA Claims Control System (SSACCS). SSACCS is used to process
claims that cannot be fully processed through MCS. For example, when a Title II record
is established, the MCS application allows for entry of up to 11 claimants on the specific
record. Additional claimants to a single MCS record would need to be recorded on
SSACCS.

DI and SSI disability claims are sent to the appropriate State DDS office for review of
medical information and determination of benefits. The State DDS offices input case
determinations into the National Disability Determination Services System (NDDSS).

SSA has developed performance measures to determine the efficiency and accuracy of
those reviews and determinations.

RESULTS OF REVIEW
For both indicators, SSA systems personnel had direct data access that would allow
them to update production performance indicator data and weaknesses existed in the
operating effectiveness of access controls related to transactions. Because of these
internal controls weaknesses, we found the data used to support these indicators to be
unreliable.

For the indicator, “DDS Net Accuracy Rate (allowances and denials combined),”
                                                                     10
management had not corrected issues raised in a previous audit report related to the
meaningfulness and the accuracy of the presentation and disclosure of information.

For the indicator, “Maintain the number of initial disability claims pending in the DDS
(at/below FY 2007/2008 goal),” an audit trail for transactions processed through the
SSACCS application did not exist.




10
  SSA, Office of the Inspector General, Disability Determination Services Net Accuracy Rate-Allowances
and Denials Combined (A-15-04-14074).


Performance Indicator Audit: DDS Processing (A-02-07-17131)                                              3
DDS Net Accuracy Rate (allowances and denials combined)

Indicator Background

Title 20 of the Code of Federal Regulations (C.F.R.), section 404.1643 (b), specifies
DDS performance criteria, including the targeted rate of decisional accuracy for initial
disability claims of 99 percent for combined Title II and Title XVI cases.

Section 221(c) of the Social Security Act also directs the Commissioner to review
                                                                11
favorable and unfavorable determinations made by the DDSs. SSA’s Quality
Performance Initial Disability Determination Reviews, which are conducted by the
regional disability quality branches (DQB) in the Office of Quality Performance (OQP),
are used to determine the accuracy of the initial allowance and denial determinations
made by the DDSs. The results of the reviews are compiled and used to calculate the
DDS Net Accuracy Rate reported in SSA’s FY 2007 PAR. Appendix C provides an
overview of the OQP process for determining the accuracy rate.

The Automated Sample Selection Process module of NDDSS is used by DQB
personnel to sample initial disability decisions made at each DDS. The Automated
Sample Selection Process module is a Quality Assurance database that uses specific
sampling features to determine the sample selection of cases to review. To ensure the
appropriateness of the disability determination, the disability examiner (DE) reviews the
sample case to determine whether the evidentiary record supports the determination
and the evidence and determination conform to SSA operating policies and procedures.
The results of the reviews are tracked entirely within the Disability Case Adjudication
and Review System (DICARS). DE reviewers input findings into DICARS and the
results are uploaded to the OQP National Datafile on SSA’s mainframe for subsequent
calculation of the indicator.

There are three groups of deficiencies identified by each DQB.

      •   Group I deficiencies are substantive deficiencies that have the potential to affect
          the determination of eligibility.
      •   Group II deficiencies are substantive deficiencies that affect only the onset,
          ending, or cessation date but do not affect the determination.
      •   Group III technical deficiencies are instances of noncompliance with procedural
          requirements that do not affect the determination.

The DDS Net Accuracy Rate reflects only Group I deficiencies in initial determinations.
Group I deficiencies identified by the reviewers are returned to the appropriate DDS
with detailed directions for the required corrective action. If the DDS agrees with DQB’s
assessment, they will correct the deficiency and return the case to DQB for completion
of the review and final case input. The DDSs may dispute any deficiency cited by DQB
by using the Request for Program Consultation (RPC). The Office of Disability

11
     The Social Security Act § 221(c), 42 U.S.C. § 421(c).


Performance Indicator Audit: DDS Processing (A-02-07-17131)                                     4
Programs (ODP) is the final arbiter. After staffing the RPC with a multi-component
forum, if ODP disagrees with the DDS dispute, ODP will affirm the DQB’s assessment;
however, if ODP disagrees with the DQB’s assessment, the deficiency is rescinded.

The Net Accuracy Rate is based on the number of deficient cases with changed
disability decisions. In addition, deficient cases not corrected within 90 days from the
end of the quarterly period covered by the report are counted as deficiencies.

Performance Indicator Calculation

                                (Number of corrected deficient cases which result in
                                                 changed decisions
                                                         +
DDS Net                         Number of deficient cases not corrected w/n 90 days)
                        = 1-
Accuracy Rate

                                      Number of disability determinations reviewed


Findings

Internal Controls and Data Reliability

Our review of access controls revealed the following exceptions.

•      Two users had excessive access to the NDDSS Customer Information Control
       System (CICS) transactions and did not require this access to perform their job
                        12
       responsibilities. CICS is a transaction processing system designed for both on-
       line and batch activity. These transactions may create, update, and delete
       performance indicator data.
•      Programmers had update access to NDDSS production datasets and did not require
       this access to perform their job responsibilities. 13

The SSA Information System Security Handbook (ISSH) states, “Access to all SSA
functions associated with software or enterprise systems must be managed based on
need-to-know and least privilege. This specifically includes changes/updates to
software, production jobs, and supporting hardware deployments. This access control
maintenance policy must be applied across the SSA enterprise.” 14 In addition, Office of
Management and Budget Circular A-130 requires that agencies implement the practice
of least privilege whereby user access is restricted to the minimum necessary to

12
   SSA management appropriately updated all user access based on job responsibilities; therefore, this
finding was remediated.
13
     Id.
14
     SSA ISSH, Section 16.3, p. 49.


Performance Indicator Audit: DDS Processing (A-02-07-17131)                                              5
perform his or her job; and enforce a separation of duties so steps in a critical function
are divided among different individuals. It also emphasizes the importance of
management controls – such as individual accountability requirements, separation of
duties enforced by access controls, and limitations on the processing privileges of
                                                                              15
individuals – to prevent and detect inappropriate or unauthorized activities.

These issues, which were also noted during the FY 2007 financial statement audit,
could result in the accidental or inappropriate alteration of the data used to support the
performance indicator. It should be noted that, during the audit, SSA management
removed the excessive application business user and programmer access to the
NDDSS application. However, because this internal control weakness existed during
the period of review, we did not find the performance indicator data to be reliable.

Meaningfulness and Accuracy of PAR Presentation and Disclosure

Generally, we found this performance indicator to be meaningful. However, some
improvements could be made to clarify and improve the usefulness of this performance
indicator. The PAR narrative states that the Net Accuracy Rate, which is the accuracy
rate for allowances and denials combined, is an indicator of “…correct initial State
disability determinations.…” 16 Some allowances in the disability adjudication process
are more frequently decided earlier in the process. This is due to the nature of the
disability meeting certain criteria that require little to no additional research or
supporting documentation, and therefore the probability of error in those cases is
considerably low. In addition, there are certain expedients that are permitted in
allowances cases that are not permitted in less than fully favorable or denial cases (for
example, if the DDS can make a fully favorable allowance before all 12-month medical
evidence of record [MER] are received, they are not required to wait for the receipt of
the additional medical evidence. However, if the determination is less than fully
favorable or a denial, the DDS must attempt to obtain all 12-month MER.). Denial
determinations tend to require more research, supporting documentation and decision
making; thus, creating a higher probability for error. The allowances and denials are
added together to determine the combined accuracy rate for a DDS. Therefore, SSA’s
allowances accuracy rate could potentially increase while its denial accuracy rate
decreased. OQP measures and tracks accuracy rates separately for allowances and
denials. By including the individual error rates for the two types of decisions, SSA could
improve the meaningfulness of the indicator.

We also found that the accuracy rate only covered the initial disability determinations
made by the DDSs, even though the DDSs were also responsible for making the
disability determinations for (a) Continuing Disability Reviews (CDR) and
(b) Reconsideration requests. DQB staff also reviewed the accuracy of DDS decisions
related to the CDRs and Reconsideration determinations; however, this information was

15
   Office of Management and Budget Circular No. A-130, Appendix III - Security of Federal Automated
Information Resources, p. 5.
16
     SSA PAR, p. 60.


Performance Indicator Audit: DDS Processing (A-02-07-17131)                                           6
excluded from the Net Accuracy Rate. In addition, only Group I initial disability
determinations are included in the performance indicator count. The title of the
performance indicator and the “data definition” section of the PAR do not clearly convey
whether this performance indicator reflects the accuracy of all DDS workloads, including
                                                                                17
CDRs and reconsideration requests, as opposed to a single DDS workload. We
found the data definition in the PAR specific to net accuracy to be misleading as the
indicator is conceptually similar to the accuracy terms defined in Title 20 of the CFR,
Section 404.1643 (b); however, the accuracy targets in the PAR of 97 percent differ
from the accuracy targets in the CFR of 99 percent. Because of the conceptual
similarities, the information in the PAR should clearly articulate the rationale for the
differing accuracy targets.

Lastly, the narrative in the PAR did not include the margin of error (that is, quantification
of sampling error) that results from extrapolating the sample error rate to the entire
population of cases reviewed.

Finally, we obtained an extraction of the detailed data and recalculated the allowance
and denial rates with insignificant differences. As a result, we have reasonable
assurance that the data reported in the PAR for this indicator are complete, accurate,
and consistent. However, the data cannot be considered reliable as the potential for
inappropriate alteration existed since systems personnel and business users had
update access to the applications used to support the calculation of the performance
indicator.

Maintain the number of initial disability claims pending in the DDS
(at/below FY 2007/2008 goal)

Indicator Background

Upon determining an applicant has met the non-medical eligibility requirements, SSA
sends the DI and SSI initial claims file to the DDS. The DDS is responsible for
determining the status of a claimant’s disability and ensuring adequate evidence is
available to support the determination. When a claim determination is made by the
DDS, the status is entered into the NDDSS as completed. If the DDS has not
completed its review, the status of the claim in the NDDSS is pending. The data within
NDDSS are automatically transferred to the Disability Insurance Operational Data Store
(DIODS). For the FY 2007 PAR, the total number of pending initial disability claims was
counted and reported as of September 28, 2007 on the State Agency Operations
Report (SAOR).




17
  ODD has agreed to change the title of the DDS Net Accuracy Rate goal to: “DDS Initial Net Accuracy
Rate.” This will not be considered a new measure because the data definition has not changed.


Performance Indicator Audit: DDS Processing (A-02-07-17131)                                            7
Performance Indicator Calculation

                                                       Total Workloads of Initial
Total Claims Pending for Title II and
                                                 =     Closed Pending Claims as of
Title XVI
                                                       September 28, 2007


Findings

Internal Controls and Data Reliability

Our review of access controls revealed the following exceptions.

•     Two users had excessive access to the MCS CICS transactions and did not require
      this level of access to perform their job responsibilities. 18
•     One programmer had excessive access to the MSSICS CICS front end screens,
      and that access was not being monitored by SSA management. 19
•     One programmer had update access to the SSIRMS production datasets and did
      not require this access to perform their job responsibilities. 20
•     Users and programmers had excessive update access to NDDSS transactions and
      datasets. Refer to the findings section on page 5 for additional details.

The SSA Information System Security Handbook (ISSH) states, “Access to all SSA
functions associated with software or enterprise systems must be managed based on
need-to-know and least privilege. This specifically includes changes/updates to
software, production jobs, and supporting hardware deployments. This access control
maintenance policy must be applied across the SSA enterprise.” 21 In addition, Office of
Management and Budget Circular A-130 requires that agencies implement the practice
of least privilege whereby user access is restricted to the minimum necessary to
perform his or her job; and enforce a separation of duties so that steps in a critical
function are divided among different individuals. It also emphasizes the importance of
management controls – such as individual accountability requirements, separation of
duties enforced by access controls, and limitations on the processing privileges of
individuals – to prevent and detect inappropriate or unauthorized activities. 22



18
     See Footnote 12, p. 5.
19
  SSA management is developing a process for analysis of programmers with extensive access rights to
CICS transactions, which is scheduled to be completed in FY 2008.
20
     See Footnote 12, p. 5.
21
     SSA ISSH, Section 16.3, p. 49.
22
   Office of Management and Budget Circular No. A-130, Appendix III - Security of Federal Automated
Information Resources, p. 5.


Performance Indicator Audit: DDS Processing (A-02-07-17131)                                            8
These issues, which were noted during the FY 2007 financial statement audit, could
result in the accidental or inappropriate alteration of the data used to support the
performance indicator. It should be noted that, during the audit, SSA management
removed the excessive application business user and programmer access to the
NDDSS application. However, because this internal control weakness existed during
the period of review, we did not find the performance indicator data to be reliable.

Additionally, we found the DIODS data used to classify the disability claims as pending
were not archived and maintained. SSA management stated the detailed data were not
maintained because of limited data storage space and lack of personnel resources.

Although we found inappropriate access issues, and SSA did not maintain the archived
information, we were able to perform alternative procedures to assess the accuracy of
the performance indicator calculation. SSA was able to provide a copy of the system
code used to generate the indicator results for our review. We concluded the code was
designed to calculate the indicator results as described by SSA management. In
addition, we selected numerous cases from DIODS, and compared the case
information to the corresponding records in the Supplemental Security and Master
Beneficiary Records. Also, we were able to observe the final calculation of this
indicator on a real-time basis. We compared the final reported results of this indicator
as reported in the PAR with the final data recorded on the SAOR report (which includes
final indicator results). Our testing resulted in no exceptions with the code, the data in
DIODS, or the results recorded in the PAR.

As a result of these tests, we have reasonable assurance that the data reported in the
PAR for this indicator are complete, accurate, and consistent. However, the data
cannot be considered reliable as the potential for inappropriate alteration existed since
systems personnel and business users had update access to the applications used to
support the calculation of the performance indicator.

In addition, we noted that an audit trail for transactions processed through the SSACCS
was not created or reviewed. This could prevent management from reviewing and
identifying inappropriate or unauthorized transactions being processed through
SSACCS.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                                 9
CONCLUSION AND RECOMMENDATIONS

For both indicators, we recommend SSA:

1. Restrict access to CICS screens and datasets for both systems based on the
   concept of least privilege access.

Specific to the performance indicator “DDS Net Accuracy Rate (allowances and denials
combined),” we recommend SSA:

2. Disclose in the PAR the accuracy rates for allowances and denials.

3. Ensure that the performance indicator titles, definitions, and goals are explicit,
   complete, and consistent.

4. Disclose in the PAR how the performance indicator data definition is different from
   the terms in the C.F.R. and include the expected completion date for when the DDS
   will meet the C.F.R. target.

5. Disclose in the PAR the margin of error (that is, quantification of sampling error) that
   results from the projecting the sample error rate to the entire population of cases
   reviewed.

Specific to the performance indicator “Maintain the number of initial disability claims
pending in the DDS (at/below FY 2007/2008 goal),” we recommend SSA:

6. Maintain an audit trail for SSACCS that captures the user identification, terminal,
   date, and time the transaction was processed. Policies and procedures should be
   implemented requiring a review of the audit trail for inappropriate access or
   processing of transactions. In lieu of making these changes to SSACCS, SSA
   should ensure that the SSACCS replacement system is configured with the
   appropriate audit trail controls. SSA management should follow-up on any
   suspicious activity and retain evidence of reviews and follow-up activities.

AGENCY COMMENTS AND PwC RESPONSE

The Agency agreed with Recommendations 1, 3, and 6; partially agreed with
Recommendation 4; and disagreed with Recommendations 2 and 5. For
Recommendation 4, SSA agreed it would be useful to include language in the PAR on
the difference between the “DDS Net Accuracy Rate” performance measure and the
C.F.R target but noted it could not provide an expected completion date for when the
DDS accuracy rate and C.F.R target would meet. For Recommendation 2, SSA
disagreed with disclosing accuracy rates for allowance and denials in the PAR. SSA
stated that the net accuracy figure was the most appropriate for a high-level Agency




Performance Indicator Audit: DDS Processing (A-02-07-17131)                               10
performance report. Lastly, in disagreeing with Recommendation 5, SSA stated that
information on the margin of error was so technical in nature that it would be difficult for
the public to understand if it was included in the PAR. The Agency’s comments are
included in Appendix D.

In response, we believe that fully implementing Recommendations 2, 4 and 5 would
strengthen the presentation on the DDS’s accuracy rate in the PAR and provide useful
information to the public.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                               11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Process Flowcharts
APPENDIX D – Agency Comments




Performance Indicator Audit: DDS Processing (A-02-07-17131)
                                                                Appendix A

Acronyms
CDR                   Continuing Disability Review
C.F.R.                Code of Federal Regulations
CICS                  Customer Information Control System
DDS                   Disability Determination Services
DI                    Disability Insurance
DICARS                Disability Case Adjudication and Review System
DIODS                 Disability Insurance Operational Data Store
DQB                   Disability Quality Branch
FO                    Field Office
FY                    Fiscal Year
GAO                   Government Accountability Office
GPRA                  Government Performance and Results Act
ISSH                  Information Systems Security Handbook
MCS                   Modernized Claims System
MER                   Medical Evidence of Record
MSSICS                Modernized Supplemental Security Income Claims System
NDDSS                 National Disability Determination Services System
OASI                  Old-Age and Survivors Insurance
ODD                   Office of Disability Determinations
ODP                   Office of Disability Programs
OQP                   Office of Quality Performance
PAR                   Performance and Accountability Report
RPC                   Request for Program Consultation
SAOR                  State Agency Operations Report
SMS                   Strategic Management Staff
SSA                   Social Security Administration
SSACCS                Social Security Administration Claims Control System
SSI                   Supplemental Security Income
SSIRMS                Supplemental Security Income Records Maintenance System
TSC                   Tele-Service Center
U.S.C.                United States Code




Performance Indicator Audit: DDS Processing (A-02-07-17131)
                                                                       Appendix B

Scope and Methodology
To meet our audit objective, we updated our understanding of the Social Security
Administration’s (SSA) Government Performance and Results Act (GPRA) processes.
This was completed through research and discussions with SSA management. We
also requested SSA to provide various documents regarding the specific programs
being measured, as well as the specific measurement used to assess the effectiveness
and efficiency of the related program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

•   Reviewed prior SSA, Office of the Inspector General and other reports related to
    SSA’s GPRA performance and related information systems.
•   Reviewed applicable laws, regulations and SSA policy.
•   Met with the appropriate SSA personnel to confirm our understanding of the
    performance indicator.
•   Flowcharted the processes. (See Appendix C.)
•   Tested key controls related to manual or basic computerized processes (for
    example, spreadsheets, databases).
•   Conducted and evaluated tests of the automated and manual controls within and
    surrounding each of the critical applications to determine whether the tested controls
    were adequate to provide and maintain reliable data to be used when measuring the
    specific indicator.
•   Identified attributes, rules, and assumptions for each defined data element or source
    document.
•   Recalculated the metric or algorithm of the performance indicator to ensure
    mathematical accuracy.
•   Assessed the completeness and accuracy of the data to determine the data's
    reliability as it pertains to the objectives of the audit and intended use of the data.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, and related
performance indicators. We analyzed how these processes interacted with related
processes within SSA and the existing measurement systems. We then determined
whether the performance indicator appeared to be valid and appropriate given SSA’s
mission, goals, objectives.

We followed all performance audit standards in accordance with generally accepted
government auditing standards.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                            B-1
In addition to these steps, we specifically performed the following to test the
performance indicators included in this report.

Specific to the performance indicator “Disability Determination Services (DDS) Net
Accuracy Rate (allowances and denials combined)”

   •   Inspected relevant policies and procedures, as necessary.
   •   Obtained an understanding and reviewed the Office of Quality Performance
       (OQP) statistical methodology (including sample weighting and error estimation)
       for performing Quality Assurance Initial Disability Determination Reviews through
       interviews and meetings with appropriate OQP personnel.
   •   Completed a general computer controls review as it relates to National Disability
       Determination Services System (NDDSS).
   •   Reviewed the process for controlling access to the Disability Case Adjudication
       and Review System (DICARS) datasets storing the indicator data and tested the
       appropriateness of the access privileges granted to the datasets for a selection
       of SSA personnel.
   •   Compared the Net Accuracy Report results for the performance indicator for
       Fiscal Year (FY) 2007 to the number reported in the Performance Accountability
       Report (PAR).

Specific to the performance indicator “Maintain the number of initial disability
claims pending in the DDS (at/below FY 2007/2008 goal)”

   •   Inspected relevant policies and procedures, as necessary.
   •   Determined the adequacy of the programming logic used by SSA to count the
       number of initial disability claims pending in the DDS.
   •   Updated our understanding of the Social Security Administration Claims Control
       System (SSACCS).
   •   Completed an application controls review for the Modernized Claims System
       (MCS).
          o Inspected a selection of users to determine whether their access to MCS
             transactions and datasets was appropriate.
          o Performed Computer Assisted Audit Tests over MCS data to determine
             whether programmed edits and validations were operating as intended.
          o Inspected a selection of sysouts to determine whether the data processed
             completely.
          o Inspected a selection of disability records to determine whether the
             disability decision was accurately transferred from NDDSS to MCS.
   •   Completed an application controls review for NDDSS.
          o Inspected a selection of users to determine whether their access to
             NDDSS transactions and datasets was appropriate.
          o Inspected a selection of sysouts to determine whether the data processed
             completely.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                          B-2
           o Inspected the interface records from NDDSS to the application Disability
              Operational Data Store.
   •   Completed an application review for Modernized Supplemental Security Income
       Claims System (MSSICS) and Supplemental Security Income Records
       Maintenance System (SSIRMS)
           o Inspected a selection of users to determine whether their access to
              MSSICS transactions and SSIRMS datasets was appropriate.
           o Performed Computer Assisted Audit Tests over MSSICS data to
              determine whether programmed edits and validations were operating as
              intended.
           o Inspected a selection of sysouts to determine whether the data processed
              completely.
           o Inspected a selection of disability records to determine whether the
              disability decision was accurately transferred from NDDSS to MSSICS.
   •   Reviewed the process for controlling access to the Disability Insurance
       Operational Data Store datasets storing the indicator data and tested the
       appropriateness of the access privileges granted to the datasets for a selection
       of SSA personnel.
   •   Compared the State Agency Operations Report results of the performance
       indicator for FY 2007 to the number reported in the PAR.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                         B-3
                                                                                                                                                                  Appendix C
Disability Determination Services Net Accuracy Rate (allowances and denials
combined) - Flowchart
                                                                                                                                                                    Case is passed to
   Disability Determination Services                                                Cases are selected for quality
                                                                                                                                       Is the case                 the Preeffectuation
  (DDS) input decisions into National            Data is uploaded                  assurance (QA) review using the
                                                                                                                                     selected for QA        No        Review (PER)
   Disability Determination Services               to NDDSS.                         Automated Sample Selection
                                                                                                                                         review?                   scoring program for
           System (NDDSS).                                                          Process (ASSP) within NDDSS
                                                                                                                                                                   further processing.

                                                                            Yes

                                                                                Selected claims are reviewed by the
  DDS is notified electronically             NDDSS case data is
                                                                              Disability Quality Branch (DQB) disability
   that all selected cases are            electronically transferred                                                                     Review
                                                                             examiners by replicating the DDS process                                                   Decision is
 locked to ensure the changes              into the Disability Case                                                              identifies substantive      No
                                                                              as closely as possible. Medical staff are                                            considered accurate.
   or effectuation do not take            Adjudication and Review                                                                    deficiencies?
                                                                              selectively referred if the case warrants
               place.                         System (DICARS).
                                                                                             their review.

                                                                            Yes

   Reviewer identifies any
                                                                                                      Rebuttal is reviewed
 decisional or documentation                     Does the                                                                                                           DDS and DQB are
                                                                                                        by the Office of                    Is
  deficiency and returns the                   DDS agree with                     DDS rebuts                                                                          notified of the
                                                                       No                             Quality Performance             the deficiency        No
    case to the DDS with                        deficiencies                       finding(s).                                                                      decision and DQB
                                                                                                        (OQP) at SSA                     upheld?
    directions for required                       noted?                                                                                                           rescinds deficiency.
                                                                                                        Headquarters.
      corrective actions.
                                   Yes
                                                    Yes
                                                                                                                                                                         Reviewer inputs
                                                                                                           Is the
                                              DDS performs                                                                                                           review or results data
        Does the DDS                                                      DQB                          deficiency a                     Deficiency is NOT
                                            corrective action(s)                                                                                                       into DICARS using
      responds within 90                                                completes                  Group I1 deficiency in       No      considered a Net
                                            and returns case to                                                                                                       the Federal Review
            days?                                                      verification.                which the decision                   Accuracy Error2.
                                            DQB for verification.                                                                                                          Results form
                                                                                                        changes?
                                                                                                                                                                     (screens in DICARS).

                                                                                                            Yes
                                                                                                                                                                  Decision considered accurate
                                          No                                           Deficiency is considered a Net Accuracy Error.                                and issued to claimant



        DICARS data is uploaded to the                                                                                                     Office of Disability Determinations (ODD) reports
                                                      OQP National                Net Accuracy Reports are calculated using
      Office of Quality Performance (OQP)                                                                                                   the national net accuracy rate to the Strategic
                                                        Datafile                  data contained in the OQP National Datafile
       National Datafile on the mainframe                                                                                                  Management Staff (SMS) for inclusion in the PAR



      1 Group I deficiencies are deficiencies that affect or have the potential to affect the basic determination of eligibility.
        Group II deficiencies are deficiencies that affect only the onset date, ending date, or cessation date.
        Group III deficiencies are instances of noncompliance with procedural requirements that don’t affect the determination.
      2 The deficiency would be considered a performance error. Performance errors do not affect this performance indicator.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                                                                                                                               C-1
Disability Determination Services Net Accuracy
(allowances and denial combined) - Narrative
    •   DDS makes decisional input into State system.
    •   Data is then uploaded to the NDDSS.
    •   The automated sample selection process module within NDDSS selects cases
        for quality review.
    •   If the case is selected for review, case data are downloaded to the DICARS and
        case files are sent to the DQB for review. Also, the DDS is notified that the case
        locked to prevent modification by the DDS.
    •   Selected claims are reviewed by the DQB disability examiners by replicating the
        DDS process as closely as possible. Medical staff are selectively referred if the
        case warrants their review.
    •   If documentation in the file is sufficient to support the disability determination,
        DQB approves the determination.
    •   If documentation in the file is insufficient to support the proposed disability
        determination, the case is returned for additional documentation. If the
        documentation supports a different determination, the case is returned for
        correction of the determination.
    •   If a case is returned to the DDS, the DDS must return the corrected case to the
                                                                                    1
        DQB for completion of the review within 90 days. Group I deficiencies with a
        recommendation from the DQB to change the decision which are not returned
        within 90 days will be considered a Net Accuracy Error.
    •   If the DDS disagrees with the actions requested by the DQB, the DDS may
        immediately submit a Request for Program Consultation (RPC) for resolution of
        the disagreement. After the RPC is staffed in a multi-component forum (usually
        within a few days), the Office of Disability Programs (ODP) is the final arbiter and
        makes the decision to affirm or rescind the DQB’s deficiency.
    •   If the DDS does not respond to a DQB return within 90 days, the OQP reviews
        the case and decides whether the deficiency will be upheld.
    •   Upon receiving additional documentation or the corrected determination from the
        DDS, the DQB completes the review.
    •   Review data and final results are entered into DICARS.
    •   Results are uploaded to the OQP National Datafile.




1
 Group I deficiencies are deficiencies that have the potential to affect the basic determination of eligibility.
Performance Indicator Audit: DDS Processing (A-02-07-17131)                                               C-2
   •   Results are summarized in the Net Accuracy Report. Deficiencies in which the
       determination changed and delinquent returns are counted as net accuracy
       errors in the calculation of net accuracy.
   •   SMS publishes the reported Government Performance and Results Act (GPRA)
       results in the annual Performance Accountability Report (PAR).




Performance Indicator Audit: DDS Processing (A-02-07-17131)                     C-3
Maintain the Number of Initial Disability Claims Pending in the DDS (at/below
FY 2007/2008 goal) - Flowchart

                        Claimant contacts SSA
                                                                                               FO interviews
                       via Field Office (FO) visit,
                                                                                                claimant via                 Is claimant
                       mail, phone call to FO or             Can the FO
                                                                                              teleclaim or in-           potentially eligible                Does claimant
     START                Tele-Service Center            personnel interview   Yes                                                                 No                              No            END
                                                                                          office appointment,             for Title II and/or               insist on filing?
                         (TSC) or online via the         the claimant today?
                                                                                           first verifying non-               Title XVI?
                        Internet Social Security
                                                                                             medical issues.
                           Application (ISBA).

                                                                 No
                                                                                                                                                Yes

                                                         Set up a teleclaim
                                                            or in-office
                                                           appointment.



                                                                                Yes
      Establish Disability Insurance (DI)
                                                                                                                      If possible, the FO
    application using Modernized Claims
                                                                                                                    representative makes
    System (MCS) or SSA Claims Control                                                Determine
                                                       Review non-                                                      and enters non-                   Is this a non-
    System (SSACCS) and Supplemental                                                effective filing                                                                            Yes      Claim is denied.
                                                      medical issues.                                               medical decision into                medical denial?
   Security Income (SSI) application using                                              date.
                                                                                                                     MCS or MSSICS or
     Modernized Supplemental Security
                                                                                                                           SSACCS.
     Income Claims System (MSSICS).




                                                                               No


                                                        DDS staff inputs        NDDSS interfaces                  DIODS calculates              Office of Disability
                                                                                                                                                                                Year-end SAOR report number
                               SSA sends the           receipt of the case        with Disability                    the number of                Determinations
                                                                                                                                                                                  is recorded in the PAR for
    Create medical            claims file to the        into the National           Insurance                     pending claims on                 (ODD) staff
                                                                                                                                                                                  “Maintain the Number of
   folder with Form            State Disability             Disability          Operational Data                  a weekly basis per              reviews weekly
                                                                                                                                                                                   initial Disability Claims
       SSA-831.                Determination              Determination         Store (DIODS) to                   the State Agency               SAOR report to
                                                                                                                                                                                Pending in the DDS (at/below
                              Services (DDS)            Services System          provide pending                  Operations Report             identify anomalies
                                                                                                                                                                                   the FY2007/2008 goal).”
                                                            (NDDSS)                claims data                          (SAOR)                  and corrects errors




Performance Indicator Audit: DDS Processing (A-02-07-17131)                                                                                                                                                 C-4
Maintain the Number of Initial Disability Claims Pending in
the DDS (at/below FY 2007/2008 goal) - Narrative
   •   Claimant contacts the Social Security Administration (SSA) via an FO in-person
       visit, mail, or telephone call to the FO or TSC or online via the ISBA.
   •   If the FO or TSC can interview the claimant, the FO or TSC will verify non-
       medical factors.
   •   If the FO or TSC is not available to interview the claimant, the FO or TSC will set
       up an in-office or telephone interview.
   •   During the interview, the FO personnel’s review determines whether the claimant
       is eligible for Title II and/or Title XVI benefits. If the claimant does not qualify for
       Title II and/or Title XVI benefits, the claimant can continue or stop the filing of the
       application.
   •   Claimants that are eligible for Title II or Title XVI benefits complete the
       application form. The FO personnel enter the Title II application into the MCS or
       SSACCS. The FO personnel enter the Title XVI application in MSSICS.
   •   The FO personnel review non-medical issues and determine the claimant’s
       effective filing date.
   •   If the determination is a technical denial, the FO personnel will enter the
       decision.
   •   If the determination is not a technical denial, a medical folder is created for the
       claimant and sent to the State DDS for the review of medical factors and
       disability determination.
   •   The NDDSS receives the claimant’s data from MCS, SSACCS and MSSICS.
   •   The NDDSS provides the total number of pending disability claims to the DIODS.
   •   The DIODS produces the pending disability claims count on a weekly basis and
       is reported on the SAOR.
   •   ODD staff analyzes the SAOR report to identify anomalies and corrects errors, if
       applicable.
   •   The year-end SAOR, dated September 28, 2007, was used to record the
       performance indicator results reported in the FY 2007 PAR.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                                C-5
                                                                                      Appendix D

           Agency Comments



                                         SOCIAL SECURITY

MEMORANDUM


Date:      June 9, 2008                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft report, “Performance Indicator Audit: Disability
           Determination Services Processing” (A-02-07-17131)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: DDS Processing (A-02-07-17131)                                    D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE INDICATOR AUDIT: DISABILITY DETERMINATION
SERVICES PROCESSING" (A-02-07-17131)

Thank you for the opportunity to review and provide comments on this draft report. Our
response to the specific recommendations is as follows.

For both performance indicators:

Recommendation 1

Restrict access to Customer Information Control System screens and datasets for both systems
based on the concept of least privilege access.

Comment

We agree. As indicated in the report, we have removed the excessive application business user
and programmer access to the National Disability Determination Services System application.

With regard to the performance indicator “Disability Determination Services (DDS) Net
Accuracy Rate,” it was noted in the narrative findings that this deficiency had been corrected
during the audit period. As such, it should be equally noted in the “Conclusion and
Recommendations” that this has been remedied.

Specific to the performance indicator, “DDS Net Accuracy Rate (allowances and denials
combined)”:

Recommendation 2

Disclose in the Performance Accountability Report (PAR) the accuracy rates for allowances and
denials.

Comment

We disagree. State DDSs make decisions at a high level of accuracy in all cases, regardless of
the case outcome. We believe that the overall rate is the most appropriate performance measure
indicator. Identifying the combined allowance and denial net accuracy rate provides the public
with an accurate depiction of the entire universe of initial cases, but also corresponds with
Federal Regulations that monitor the combined allowance and denial accuracy rate. Additional
information is available for those who want detailed performance data; however, the reported net
accuracy figure is the most appropriate for a high-level Agency performance report.




Performance Indicator Audit: DDS Processing (A-02-07-17131)                                      D-2
Recommendation 3

Ensure that the performance indicator titles, definitions, and goals are explicit, complete, and
consistent.

Comment

We agree. It is important that SSA’s performance measures are clear and precise, and that the
accompanying definitions accurately reflect how and what is being measured. As noted on page
6 of the report in footnote 17, we have agreed to change the title of the DDS Net Accuracy Rate
goal to "DDS Initial Net Accuracy Rate.” In order to maintain consistency with previous PARs,
clarifying the definition of the performance indicator to state that the net accuracy rate only
covers initial disability determinations is a better solution than changing the indicator.

Recommendation 4

Disclose in the PAR how the performance indicator data definition is different from the terms in
the Code of Federal Regulations (CFR) and include the expected completion date for when the
DDSs will meet the CFR target.

Comment

We agree with the first part of the recommendation. We agree that language addressing the
difference between the data definition for this performance indicator and the terminology in the
CFR would be meaningful. We will develop language for inclusion in the fiscal year 2008 PAR.

We disagree with the second part of the recommendation regarding the expected completion date
for when the DDSs will meet the CFR target. We set the targets based on resources and
priorities. We realize that there is an optimal level of performance as shown in the CFR, but we
do not anticipate reaching this target in the near future. As we revisit the target each year and
again consider resources and priorities, we will strive to meet that level, but cannot give you an
expected completion date.

Recommendation 5

Disclose in the PAR the margin of error (that is, quantification of sampling error) that results
from projecting the sample error rate to the entire population of cases reviewed.

Comment

We disagree. In our monthly Net Accuracy reports, we include statistics on the sampling error
estimates. We do not believe that additional statistical qualification should be included in the
PAR. The information is so technical in nature that it would be very difficult for the public to
understand. As a result, there would be little value added.



Performance Indicator Audit: DDS Processing (A-02-07-17131)                                        D-3
Specific to the performance indicator, “Maintain the number of initial disability claims pending
in the DDS (at/below fiscal year 2007/2008 goal):”

Recommendation 6

Maintain an audit trail for SSA Claims Control System (SSACCS) that captures the user
identification, terminal, date, and time the transaction was processed. Policies and procedures
should be implemented requiring a review of the audit trail for inappropriate access or processing
of transactions. In lieu of making these changes to SSACCS, SSA should ensure that the
SSACCS replacement system is configured with the appropriate audit trail controls. SSA
management should follow-up on any suspicious activity and retain evidence of reviews and
follow-up activities.

Comment

We partially agree. We are phasing out SSACCS. Therefore, it is cost-prohibitive to maintain an
audit trail for this system’s transactions. The Office of Management and Budget's Circular A-11,
section 230.2e states, "Performance data need not be perfect to be reliable, particularly if the cost
and effort to secure the best performance data will exceed the value of any data so obtained
However, we agree that the replacement system should be designed with appropriate audit trail
controls.



[SSA also included one technical comment, which was addressed in the text of the
report.]




Performance Indicator Audit: DDS Processing (A-02-07-17131)                                      D-4
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
